                                                                             Report No. DODIG-2014-011




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              NOVEMBER 22, 2013




                     Missile Defense Agency and Defense
                     Microelectronics Activity Use of
                     Cost‑Reimbursement Contracts




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                         Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                        Results in Brief
                                        Missile Defense Agency and Defense Microelectronics
                                        Activity Use of Cost‑Reimbursement Contracts




November 22, 2013

 Objective                                              Finding
 We are required to perform this audit in               Of the 88 contracts reviewed, valued at about $1.66 billion,
 accordance with the FY 2009 National Defense           MDA and DMEA contracting personnel did not consistently
 Authorization Act, section 864, “Regulations           implement the interim rule for 72 contracts, valued at about
 on the Use of Cost Reimbursement Contracts.”           $528 million.     Contracting personnel issued contracts that
 Our objective was to determine whether                 did not follow the interim rule because of different
 the Missile Defense Agency (MDA) and the               interpretations of the interim rule requirements. As a result,
 Defense Microelectronics Activity (DMEA)               MDA and DMEA contracting personnel continue to issue
 complied with interim Federal Acquisition              cost-reimbursement contracts that may inappropriately increase
 Regulation revisions on the use of cost-               DoD’s contracting risks because cost reimbursement contracts
 reimbursement contracts by documenting:                provide less incentive for contractors to control costs.

    •	 that approval for the cost-reimbursement
       contract was at least one level above the        Recommendations
       contracting officer;                             We recommend that the Director of Contracting, MDA:

    •	 that cost-reimbursement contracts were
                                                           •	 Emphasize the importance of the Federal Acquisition
       justified;
                                                              Regulation revisions to contracting personnel for the use of
    •	 how the requirements under the contract                cost-reimbursement contracts.
       could transition to firm-fixed-price in
                                                        We recommend that the Chief, Contracting Division, DMEA:
       the future;
                                                           •	 Develop procedures that ensure a senior official approves all
    •	 that Government resources were available
                                                              cost-reimbursement contracts one level above the contracting
       to monitor the cost-reimbursement
                                                              officer.
       contract; and
                                                           •	 Emphasize the importance of the Federal Acquisition
    •	 that contractors had an adequate
                                                              Regulation revisions through guidance to contracting
       accounting system in place at contract
                                                              personnel for the use of cost-reimbursement contracts.
       award.
                                                           •	 Provide guidance to contracting personnel that the nature
 This is the third in a planned series of
                                                              of DMEA’s contracts and the inability to transition to a firm-
 audit reports on DoD compliance with the
                                                              fixed-price contract needs to be documented in the contract
 interim rule for the use of cost-reimbursement
                                                              file of cost-reimbursement contracts.
 contracts.




 Visit us on the web at www.dodig.mil


                                                                             DODIG-2014-011 (Project No. D2013-D000CG-0170.000) │ i
                                      Results in Brief (cont’d)
                                      Missile Defense Agency and Defense Microelectronics
                                      Activity Use of Cost‑Reimbursement Contracts



 Management Comments
 The Director, Missile Defense Agency, agreed with our     is always available to approve all cost-reimbursement
 recommendation and will emphasize the importance of       contracts one level above the contracting officer.
 the revisions to contracting personnel. MDA contracting   According to the Chief’s comments, DMEA has provided
 personnel have updated their checklists to reflect        additional training to contracting personnel regarding the
 the revisions. The Chief, Contracting Division, Defense   requirements of the interim rule. We consider these
 Microelectronics Activity, agreed and immediately         comments responsive. Please see the recommendations
 established procedures to ensure that a senior official   table on the next page.




ii │ DODIG-2014-011 (Project No. D2013-D000CG-0170.000)
Recommendations Table
                                           Recommendations                No Additional
             Management                    Requiring Comment            Comments Required
Director of Contracting, Missile Defense                            1
Agency
Chief, Contracting Division, Defense                                2.a., 2.b., and 2.c.
Microelectronics Activity




                                                               DODIG-2014-011 (Project No. D2013-D000CG-0170.000) │ iii
                                                INSPECTOR GENERAL
                                               DEPARTMENT OF DEFENSE
                                               4800 MARK CENTER DRIVE
                                            ALEXANDRIA, VIRGINIA 22350-1500



                                                                                               November 2 2, 2013

             MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY,
                              AND LOGISTICS
                            DIRECTOR, MISSILE DEFENSE AGENCY
                            DIRECTOR, DEFENSE MICROELECTRONICS ACTIVITY

             SUBJECT: Missile Defense Agency and Defense Microelectronics Activity Use of
                      Cost-Reimbursement Contracts (Report No. DODIG-2014-011)

             We are providing this report for information and use. Of the 88 contracts reviewed, valued
             at about $1.66 billion, contracting personnel did not consistently implement the Federal
             Acquisition Regulation revisions for the use of cost-reimbursement contracts for 72 contracts,
             valued at about $528 million. We are required to perform this audit in accordance with the
             FY 2009 National Defense Authorization Act, se ction 864, "Regulation on the Use of Cost
             Reimbursement Contracts." This is the third in a series of audit reports on DoD compliance
             with the interim rule for the use of cost reimbursement contracts.

             We considered management comments on a draft of this report when preparing the
             final report.    Comments from the Director, Missile Defense Agency, and the Chief,
             Contracting Division, Defense Microelectronics Activity, conformed to the r equirements of
             DoD Directive 7650.3; therefore, additional comments are not required.

             We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-9077
             (DSN 664-9077).




                                                       a
                                                       tfJac
                                                                       -     tw~
                                                               eline L. Wicecarver
                                                          Assistant Inspector General
                                                          Acquisition, Par ts, and Inventory




iv   I DODIG-2014-01 1
Contents
Introduction______________________________________________________________________________1
Objective__________________________________________________________________________________________1
Background_______________________________________________________________________________________2
Interim Rule Requirements and Our Interpretation__________________________________________2
Contracts Reviewed______________________________________________________________________________5
The Small Business Innovation Research Program____________________________________________5
Review of Internal Controls_____________________________________________________________________6

Finding. MDA and DMEA Inconsistently Implemented
the Interim Rule_______________________________________________________________________7
More Consistent Documentation Procedures Needed to Fully Implement Federal
Acquisition Regulation Revisions_______________________________________________________________8
Cost-Reimbursement Contracts Approved Inconsistently____________________________________8
Generally Included Documentation to Justify the Use of a Cost-Reimbursement
Contract Type ____________________________________________________________________________________9
MDA Generally Documented Transition Requirements to Firm-Fixed-Price
Contracts, but DMEA Did Not Document Efforts for Most Contracts_______________________ 10
Ensured Government Resources Were Available to Monitor Award _ _____________________ 11
Inconsistent Verification That an Adequate Accounting System Was in
Place at Award_ ________________________________________________________________________________ 11
Contracting Personnel Properly Classified Firm-Fixed-Price Contracts___________________ 12
MDA Has Taken Additional Steps to Increase Compliance__________________________________ 12
DMEA Implemented New Procedures to Increase Compliance_ ___________________________ 12
Conclusion______________________________________________________________________________________ 13
Management Comments on the Finding and Our Response________________________________ 13
Recommendations, Management Comments, and Our Response__________________________ 14




                                                                                                       DODIG-2014-011 │ v
                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 16
                      Universe and Sample Information_______________________________________________________ 17
                      Review of Documentation and Interviews_______________________________________________ 18
                      Use of Computer-Processed Data_ _______________________________________________________ 19
                      Use of Technical Assistance_______________________________________________________________ 19
                      Prior Coverage_____________________________________________________________________________ 19
                  Appendix B. Federal Acquisition Circular 2005-50, Issued March 16, 2011______________ 21
                  Appendix C. Contract Compliance with Interim Rule Requirements______________________ 26

                  Management Comments_____________________________________________________ 31
                  Missile Defense Agency Comments___________________________________________________________ 31
                  Defense Microelectronics Activity Comments _______________________________________________ 33

                  Acronyms and Abbreviations______________________________________________ 35




vi │ DODIG-2014-011
                                                                                                                                     Introduction




Introduction
Objective
Our objective was to determine whether Missile Defense Agency (MDA) and Defense
Microelectronics Activity (DMEA) contracting personnel complied with interim Federal
Acquisition Regulation (FAR) revisions regarding the use of cost-reimbursement1
contracts. Specifically, we determined whether MDA and DMEA contracting personnel
implemented the interim rule by documenting:

              •	 that approval for the cost-reimbursement contract was at least one level
                  above the contracting officer,

              •	 that the use of cost-reimbursement contracts was justified,

              •	 how the requirements under the contract could transition to firm‑fixed‑price
                  in the future,

              •	 that Government resources were available to monitor the cost‑reimbursement
                  contract, and

              •	 that contractors had an adequate accounting system in place at contract
                  award.

We also determined whether MDA and DMEA personnel intentionally misclassified
contracts as firm‑fixed‑price to avoid the increased cost-reimbursement contract
documentation requirements.

In addition to this report, we are issuing separate reports for each of the
Services, as well as a summary report.                            This is the third report in the planned
series of reports and includes contracts issued by MDA and DMEA. The first report
of the series, “Air Force Needs Better Processes to Appropriately Justify and Manage
Cost-Reimbursable Contracts” (Report No. DODIG-2013-059), was issued on
March 21, 2013.                  The second report of the series, “Army Compliance with
FAR Revisions Regarding the use of Cost-Reimbursement Contracts” (Report
No. DODIG-2013-120), was issued on August 23, 2013.                                       See Appendix  A for the
scope and methodology and prior coverage related to the objective.




	1	
      We use “cost reimbursement” to describe any type of contract other than firm-fixed-price contracts throughout the report,
      such as labor hour and time and materials contracts.




                                                                                                                                  DODIG-2014-011 │ 1
Introduction



                 Background
                 Section 864 of the FY 2009 National Defense Authorization Act requires FAR
                 revisions regarding the documentation of decisions and approvals necessary before
                 issuance of other than firm-fixed-price contracts and the DoD Inspector General to
                 audit DoD’s compliance with the changes within 1 year of policy issuance. Federal
                 Acquisition Circular (FAC) 2005-50, issued March 16, 2011, implemented the
                 required revisions on an interim basis. This interim rule was effective immediately
                 and was not subject to public comment before issuance.       FAC 2005-50 amended
                 FAR Part 7, “Acquisition Planning,” FAR Part 16, “Types of Contracts,” and
                 FAR Part 42, “Contract Administration and Audit Services.”       The final rule was
                 published in the Federal Register on March 2, 2012, without significant changes
                 that would affect our audit objective. To promote savings in Federal contracting, the
                 final rule stated that contracting personnel should choose the appropriate contract
                 type.   See Appendix B for a copy of the interim rule, FAC 2005-50, issued
                 March 16, 2011.


                 Interim Rule Requirements and Our Interpretation
                 We divided our objective into five areas based on the interim rule. We interpreted
                 parts of the interim rule for each of these areas to determine what we would
                 accept as adequate documentation in the contract file. Contracting personnel were
                 required by the interim rule to include the approval, justification, and transition
                 areas in the acquisition planning documentation.      For each of these areas, we
                 accepted documentation anywhere in the contract file because some of the
                 Acquisition Plans were completed before the interim rule.     Contracting personnel
                 were not required by the interim rule to document that adequate resources and
                 an adequate accounting system were available specifically within the acquisition
                 planning documentation.


                 Approval
                 Contracting personnel were required by the interim rule to obtain approval of
                 a cost‑reimbursement contract at least one level above the contracting officer.
                 FAC 2005‑50 states, “[t]he contracting officer shall document the rationale for
                 selecting the contract type in the written Acquisition Plan and ensure that the
                 plan is approved and signed at least one level above the contracting officer.”
                 Contracting personnel were required by the interim rule to document this approval
                 in the Acquisition Plan.   We accepted any documentation in the contracting files




2 │ DODIG-2014-011
                                                                                             Introduction



that stated the contract type was cost reimbursement and was reviewed and
signed by a senior official above the contracting officer as evidence of having
met the interim rule requirement.


Justification
Contracting personnel were required by the interim rule to justify the use of a
cost‑reimbursement contract. FAC 2005-50 states:

           [a]cquisition personnel shall document the acquisition plan with findings
           that detail the particular facts and circumstances, (e.g., complexity of the
           requirements, uncertain duration of the work, contractor’s technical
           capability and financial responsibility, or adequacy of the contractor’s
           accounting system), and associated reasoning essential to support the
           contract type selection. . . .


Contracting personnel were required by the interim rule to document the justification
in the Acquisition Plan.      We determined that contracting personnel followed the
interim rule by completing a Determination and Finding memorandum on contract
type for inclusion in the contract file or included a discussion of research and
development efforts with results that cannot be precisely described in advance.


Transition
Contracting personnel were required by the interim rule to document the
potential of cost-reimbursement contracts to transition to firm-fixed-price contracts.
FAC 2005-50 states:

           For each contract (and order) contemplated, discuss the strategy
           to transition to firm-fixed-price contracts to the maximum extent
           practicable. During the requirements development stage, consider
           structuring the contract requirements, e.g., contract line items (CLINS),
           in a manner that will permit some, if not all, of the requirements to be
           awarded on a firm-fixed-price basis, either in the current contract, future
           option years, or follow-on contracts.


We interpreted this section of the interim rule to require an explanation of the
potential to transition to a firm-fixed-price contract or a justification as to why
the particular effort will never be able to transition to a firm-fixed-price contract.
Contracting personnel were required by the interim rule to document this
strategy in the Acquisition Plan. In addition to areas where contracting personnel
documented that future work will transition to firm‑fixed‑price, we determined
that contracting personnel were following the interim rule if they issued contracts



                                                                                          DODIG-2014-011 │ 3
Introduction



                 that had both firm-fixed-price and cost-reimbursement contract line item numbers
                 along with a statement in the contract file that allowed the firm-fixed-price
                 contract line item numbers to be used when the requirements became appropriate
                 for a firm-fixed-price contract. We also determined that contracts noting that the
                 award will not be able to transition to a firm-fixed-price contract for various
                 reasons met the intent of the interim rule.


                 Adequate Resources
                 Contracting personnel were required by the interim rule to document that adequate
                 resources are available to manage a cost-reimbursement contract. FAC 2005-50 states:

                            A cost-reimbursement contract may be used only when—Adequate
                            Government resources are available to award and manage a contract
                            other than firm-fixed-priced (see 7.104(e)) including— (i) Designation
                            of at least one contracting officer’s representative (COR) qualified in
                            accordance with 1.602–2 has been made prior to award of the contract
                            or order.


                 We interpreted this section of the interim rule to require, at a minimum, evidence
                 of the assignment of an appropriate contracting officer’s representative (COR)
                 or similarly qualified individual to the contract. We obtained the COR nomination
                 letter, signed acceptance by the COR, and COR training documents.                Contracting
                 personnel were not required by the interim rule to document this evidence in any
                 specific location of the contract file.    We recognized that assigning a COR to the
                 contract does not always indicate that adequate Government resources are
                 available to monitor the contract as required by the interim rule.             For purposes
                 of our objective, however, we identified the assignment of a COR on the contracts
                 and did not test the adequacy of the CORs assigned.


                 Adequate Accounting System
                 Contracting personnel were required by the interim rule to determine the adequacy
                 of the contractor’s accounting system during the entire period of performance for
                 cost‑reimbursement contracts.       FAC 2005-50 states, “Determine the adequacy of
                 the contractor’s accounting system. The contractor’s accounting system should be
                 adequate during the entire period of contract performance.” We interpreted this section
                 of the interim rule to require documentation that the contracting officer concluded
                 the accounting system was adequate. At a minimum, we required a statement in the
                 file that the accounting system was adequate based on information from the
                 Defense Contract Audit Agency, the Defense Contract Management Agency, or similar
                 entities responsible for monitoring the contractor. We also accepted the contracting


4 │ DODIG-2014-011
                                                                                                Introduction



officer’s documented conclusion and e-mails from the Defense Contract Audit
Agency and the Defense Contract Management Agency personnel as adequate
documentation.      We focused our audit on identifying whether the contracting
officer determined that the accounting system was adequate at contract award,
rather than during the entire period of performance, as required by the interim rule.


Contracts Reviewed
Our    Federal   Procurement       Data   System–Next      Generation    queries   identified
971 cost‑reimbursement, labor-hour, or time-and-materials contract actions issued
by Defense agencies and activities from March 17, 2011 through February 29, 2012,
valued at about $13.9 billion; this includes the value of all potential options and any
firm-fixed-price portions of the contracts.       To meet DoD Inspector General’s audit
requirement in Section 864 of the FY 2009 National Defense Authorization Act, we
determined that we would review one Defense agency and one Defense activity. We
selected MDA and DMEA based on a combination of cost-reimbursement award
amounts and number of cost-reimbursement contracts issued. MDA and DMEA were
responsible for 291 of the 971 contracts issued by DoD agencies and activities during
this time period.    We reviewed 88 contracts, with cost-reimbursement portions,
valued at about $1.66  billion; 2 of the 88 contracts accounted for about
$932 million of this amount.        Table  1 shows the number of basic contracts, the
task or delivery orders reviewed, and the contract value at each site.

Table 1. Contracts Reviewed

      Site       Basic Contracts     Task/Delivery Order      Total        Contract Value
 MDA                   25                    14                39          $1,256,385,631
 DMEA                   2                    47                49            407,901,590
  Total                27                    61                88          $1,664,287,221


The Small Business Innovation Research Program
The Small Business Innovation Research (SBIR) program is a three-phase program
that encourages domestic small businesses to engage in Federal research and
development with the potential for commercialization.               The SBIR program was
established under the Small Business Innovation Development Act of 1982 to
increase small business opportunity in federally funded research and development,
stimulate high‑tech innovation, and increase private-sector commercialization.
The U.S. Small Business Administration serves as the coordinating agency. Phase I
of the program is designed for exploration of the technical merit or feasibility of



                                                                                            DODIG-2014-011 │ 5
Introduction



                 an idea or technology.    A firm‑fixed‑price contract is almost always used for this
                 phase. Phase II, typically a cost-plus-fixed-fee contract, consists of the research and
                 development work, in which the developer also evaluates commercialization potential.
                 During Phase III, the developer moves toward commercialization of the innovation.
                 SBIR program funds cannot be used for Phase III. We did not target or avoid SBIR
                 contracts as part of our nonstatistical sample because the interim rule does not
                 include an exception for SBIR contracts.

                 The SBIR Desk Reference for Contracting and Payment states that, according to
                 FAR Subpart 16.3, “Cost-Reimbursement Contracts,” a cost-reimbursement contract
                 may be used only when the contractor’s accounting system is adequate for determining
                 costs applicable to the contract and requires Government surveillance during the
                 performance of the contract.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 May 30, 2013, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating
                 as intended and to evaluate the effectiveness of the controls. We identified internal
                 control weaknesses for implementing the changes required by the interim rule
                 regarding the use of cost-reimbursement contracts.         MDA and DMEA did not
                 update local procedures or other guidance for issuing and administering
                 cost-reimbursement contracts.      Specifically, DMEA did not have procedures in
                 place to justify the use of cost‑reimbursement contracts.       MDA and DMEA did
                 not have procedures to approve the use of cost-reimbursement contracts and
                 did not always document the potential of cost-reimbursement contracts to
                 transition to firm-fixed-price contracts.   Additionally, MDA and DMEA contracting
                 personnel did not always verify the adequacy of the contractor’s accounting
                 system as required by the interim rule. We will provide a copy of the report to
                 the senior official in charge of internal controls in the Office of the Under Secretary
                 of Defense for Acquisition, Technology, and Logistics and in MDA and DMEA.




6 │ DODIG-2014-011
                                                                                                        Finding




Finding
MDA and DMEA Inconsistently Implemented the
Interim Rule
Of the 88 contracts reviewed, valued at about $1.66 billion, MDA and DMEA
contracting personnel did not consistently implement the interim rule for 72 contracts,
valued at about $528 million.                       MDA and DMEA contracting personnel fully met
the interim rule on 16 contracts,2 valued at about $1.14 billion, of the 88 contracts.

Specifically, contracting personnel did not:

              •	 obtain approval for the use of a cost-reimbursement contract for
                  19 contracts, valued at about $74.9 million, at MDA, and 31 contracts,
                  valued at about $192.3 million, at DMEA;

              •	 justify the use of a cost-reimbursement contract for 10 contracts, valued
                  at about $3.6 million, at DMEA;

              •	 document the possibility of a transition to a firm-fixed-price contract for
                  2 contracts, valued at about $43.6 million, at MDA, and 48 contracts,
                  valued at about $403 million, at DMEA;

              •	 ensure adequate Government resources were available for 1 contract,
                  valued at about $.5 million, at DMEA; and

              •	 verify the adequacy of the contractor’s accounting system for 7 contracts,
                  valued at about $18.4 million, at MDA, and 20 contracts, valued at about
                  $115 million, at DMEA.

MDA and DMEA contracting personnel generally stated they issued contracts that
did not meet the interim rule because of different interpretations of the interim
rule’s requirements.

As a result, MDA and DMEA contracting personnel continue to issue cost-
reimbursement contracts that may inappropriately increase DoD’s contracting risks
because cost‑reimbursement contracts provide less incentive for contractors to
control costs.


2



	2	
      Contracting personnel at MDA issued 15 of the 16 fully compliant contracts.



                                                                                               DODIG-2014-011 │ 7
Finding



                 More Consistent Documentation Procedures Needed
                 to Fully Implement Federal Acquisition Regulation
                 Revisions
                 MDA and DMEA contracting officers fully implemented FAR revisions on 16 of the
                 88 contracts valued at about $1.14 billion. MDA contracting officials issued 15 of
                                          the 16 fully compliant contracts.          Contracting officials
                                                implemented portions of the interim rule for the
                              Contracting           other 72 contracts valued at about $528 million,
                                officials             but    they    did     not    consistently    include
                        implemented portions
                                                        documentation in the contract files to meet the
                      of the interim rule for the
                     other 72 contracts valued at       interim rule.      Contracting officials described
                     about $528 million, but they       their contracting procedures and explained their
                     did not consistently include       interpretation of the interim rule at each site
                         documentation in the
                         contract files to meet        visited.   When contracting officers documented
                           the interim rule.          the elements of the interim rule, the elements
                                                    were in the signed Acquisition Plan, Price Negotiation
                                              Memorandum, Business Clearance Memorandum, or in
                 the Determination and Finding of Contract Type. We interpreted the interim rule to
                 apply to task or delivery orders issued after the effective date of the interim rule
                 (March 16, 2011), regardless of the timing of the basic contract award.               See
                 Appendix C for tables showing interim rule compliance by contract.                MDA and
                 DMEA contracting officials should emphasize the importance of the Federal
                 Acquisition Regulation revisions to contracting personnel for the use of cost‑
                 reimbursement contracts in guidance and training courses.


                 Cost-Reimbursement Contracts Approved
                 Inconsistently
                 Contracting personnel at MDA and DMEA did not always meet the interim rule
                 requiring approval one level above the contracting officer for the use of a cost-
                 reimbursement contract.     Contracting personnel at MDA obtained proper approval
                 for the use of cost‑reimbursement contracts on 20 of 39 contracts, valued at about
                 $1.18 billion. MDA contracting personnel did not obtain proper approval for the use
                 of cost-reimbursement contracts on 19 of 39 contracts, valued at about $74.9 million.
                 DMEA contracting personnel did not obtain proper approval for the use of cost-
                 reimbursement contracts on 31 of 49 contracts, valued at about $192.3 million.
                 Contracting personnel at MDA were under the impression that, because acquisition
                 plans were not required for SBIR contracts, they were exempt from the interim


8 │ DODIG-2014-011
                                                                                                      Finding



rule’s requirement for approval one level above the contracting officer. Additionally,
some contracting personnel at both sites cited different interpretations of the
interim rule as the reason for their omission of the approval one level above the
contracting officer.    The Chief, Contracting Divison, at DMEA should develop
procedures that ensure a senior official approves all cost-reimbursement contracts
one level above contracting officer.

No recommendation is directed to MDA because MDA took corrective actions as
discussed on page 12 of this report. Additionally, we plan to discuss this area of the
interim rule in our summary report. Table 2 shows the total contracts reviewed at each
site and the number of those contracts that did not meet this section of the interim rule.

Table 2. Results of Level of Approval One Level Above the Contracting Officer

          Site                Total Contracts                Did Not Meet Interim Rule
 MDA                                   39                               19
 DMEA                                  49                               31
  Total                                88                               50


Generally Included Documentation to Justify the Use of
a Cost-Reimbursement Contract Type
Contracting personnel at MDA fully satisfied the interim rule requirement to justify a
cost-reimbursement type contract, justifying usage on all 39 contracts, valued at about
$1.26 billion. DMEA generally satisfied the requirement to justify a cost-reimbursement
contract, including proper documentation in 39 of the 49 contracts reviewed, valued at
about $404.3 million. However, DMEA contracting personnel did not satisfy the interim
rule’s requirement to justify a cost-reimbursement type contract for 10 contracts, valued
at about $3.6 million because DMEA contracting personnel generally did not include
supplemental documentation including justification of contract type for most contracts
under $1 million. DMEA contracting personnel should emphasize the importance of
the Federal Acquisition Regulation revisions to contracting personnel for the use of
cost‑reimbursement contracts in guidance and training courses.

Table 3 shows the total contracts reviewed at each site and the number of those contracts
that did not meet this section of the interim rule.




                                                                                             DODIG-2014-011 │ 9
Finding



                 Table 3. Justified the Use of a Cost-Reimbursement Contract Type

                               Site                       Total Contracts                    Did Not Meet Interim Rule
                      MDA                                        39                                       0
                      DMEA                                       49                                    10
                       Total                                     88                                    10


                 MDA Generally Documented Transition Requirements
                 to Firm-Fixed-Price Contracts, but DMEA Did Not
                 Document Efforts for Most Contracts
                 Contracting personnel at MDA generally documented the possibility of transitioning from
                 a cost-reimbursement type contract to a firm-fixed-price contract, providing the proper
                 documentation on 37 of the 39 contracts reviewed, valued at about $1.2 billion. The two
                 contracts for which MDA did not provide adequate documentation were valued at about
                 $43.5 million.

                 DMEA contracting personnel did not provide adequate
                 documentation on 48 of 49 contracts, valued at about                                     DMEA
                                                                                                       contracting
                 $403 million.            The one contract for which DMEA did                       personnel did not
                 provide          adequate         documentation      to    support    the          provide adequate
                 transition           from    a      cost-reimbursement        type     to          documentation on
                                                                                                    48 of 49 contracts,
                 firm‑fixed‑price            contract      was     valued     at     about
                                                                                                     valued at about
                 $5 million. DMEA cited unique, one‑time requirements                                 $403 million.
                 on the majority of its contracts, which will never be
                 renewed, as the reasoning for omitting documentation
                 for        the       transition     of   cost‑reimbursement          type    contracts       to   firm-fixed-
                 price.           The Chief, Contracting Division,                 at DMEA should provide guidance
                 to contracting personnel that the nature of DMEA’s contracts and the inability
                 to transition to a firm-fixed-price contract needs to be documented in the contract
                 file of cost-reimbursement contracts.

                 Table 4 shows the total contracts reviewed at each site and the number of those
                 contracts that did not meet this section of the interim rule.

                 Table 4. Results of Efforts to Transition Subsequent Contracts to Firm-Fixed-Price

                               Site                       Total Contracts                    Did Not Meet Interim Rule
                      MDA                                        39                                       2
                      DMEA                                       49                                    48
                       Total                                     88                                    50

10 │ DODIG-2014-011
                                                                                                      Finding



Ensured Government Resources Were Available to
Monitor Award
MDA and DMEA contracting personnel satisfied the interim rule requirement to make
adequate Government resources available to monitor a cost-reimbursement contract
by assigning a COR to 87 of 88 contracts, valued at about $1.66 billion. The one
contract for which DMEA did not provide adequate documentation was valued at
about $.5 million.     We will not be making a recommendation based on the small
number of non-compliant actions.

Table 5 shows the total contracts reviewed at each site and the number of those
contracts that did not meet this section of the interim rule.

Table 5. Results of Government Resources Available to Monitor Contract

          Site                Total Contracts                   Did Not Meet Interim Rule
 MDA                                39                                     0
 DMEA                               49                                     1
  Total                             88                                     1


Inconsistent Verification That an Adequate Accounting
System Was in Place at Award
Contracting personnel at MDA generally verified that an adequate accounting
system was in place by providing proper documentation on 32 of 39 contracts
reviewed, valued at about $1.2 billion. MDA contracting personnel did not provide
documentation of an adequate accounting system in place on 7 contracts, valued at
about $18.4 million.

DMEA contracting personnel inconsistently verified that an adequate accounting
system was in place, providing proper documentation on 29 of 49 contracts
reviewed, valued at about $293 million. DMEA contracting personnel did not provide
documentation to determine that an adequate accounting system was in place on
20 contracts, valued at about $115 million.

Table 6 shows the total contracts reviewed at each site and the number of those
contracts that did not meet this section of the interim rule.




                                                                                            DODIG-2014-011 │ 11
Finding



                 Table 6. Results of Adequate Accounting System in Place
                               Site           Total Contracts               Did Not Meet Interim Rule
                      MDA                              39                              7
                      DMEA                             49                             20
                       Total                           88                             27


                 Of the 27 cases of noncompliance, valued at about $133 million, MDA and DMEA
                 contracting personnel stated they were unfamiliar with the interim rule requirements or
                 stated that in some cases audit documentation was not available in the task order files,
                 but was completed for the original contract. MDA and DMEA contracting officials should
                 emphasize the importance of the Federal Acquisition Regulation revisions to contracting
                 personnel for the use of cost-reimbursement contracts in guidance and training courses.


                 Contracting Personnel Properly Classified
                 Firm-Fixed-Price Contracts
                 MDA and DMEA contracting personnel classified firm-fixed-price contracts correctly and
                 did not miscode contracts in the Federal Procurement Database System-Next Generation.
                 We reviewed 37 firm-fixed-price contracts issued by MDA and DMEA contracting
                 personnel and determined that no contracts were classified incorrectly.


                 MDA Has Taken Additional Steps to Increase
                 Compliance
                 After our initial site visit to MDA in June 2012, the MDA contracting office
                 revised multiple checklists used in the contract writing process.         MDA personnel
                 provided four updated checklists for pre-solicitations, competitive awards, non‑
                 competitive awards, and issuance of task and delivery orders. Each checklist had a
                 portion added to address specific areas of the interim rule.           MDA proactively
                 took steps to increase compliance on future cost-reimbursement contracts.
                 Additionally, MDA personnel provided a list of actions taken on the specific
                 contracts we reviewed to increase their compliance; however, we did not
                 independently verify those actions.


                 DMEA Implemented New Procedures to Increase
                 Compliance
                 Immediately after our site visit to DMEA in June 2012, the DMEA contracting office
                 instituted new procedures, guidance, and training to ensure compliance with the


12 │ DODIG-2014-011
                                                                                                   Finding



interim rule’s requirements. DMEA officials introduced a new procedure that assures
that all contracts have one senior official available to approve cost-reimbursement
contracts one level above the contracting officer.          DMEA contracting personnel
were also provided training to highlight the importance of the FAR revisions with
regard to the use of cost reimbursement contracts.           Additionally, DMEA officials
provided follow up guidance to contracting personnel that the nature of the DMEA’s
contracts and the inability to transition to firm-fixed-price needs to be documented
in the contract file of cost-reimbursement contracts. We did not independently verify
the adequacy of these new procedures.


Conclusion
Contracting personnel did not consistently implement the interim rule for 72 contracts,
valued at about $528 million, of the 88 contracts we reviewed, valued at about
$1.66  billion. MDA contracting personnel fully met the interim rule on 15 contracts,
valued at about $1.1 billion, of the 39 contracts reviewed. DMEA contracting personnel
fully met the interim rule on only one contract valued at about $5 million, of the
49 contracts reviewed. Contracting personnel continue to issue cost-reimbursement
contracts   that   may   inappropriately   increase   the    contracting   risks   because
cost-reimbursement contracts provide less incentive for contractors to control
costs. Contracting personnel can better plan, issue, and oversee cost-reimbursement
contracts by fully implementing the FAR revisions.


Management Comments on the Finding and
Our Response
Defense Microelectronics Activity Comments
The Chief, Contracting Division, Defense Microelectronics Activity, agreed that the level
of documentation required by the interim rule was lacking in some files. The Chief,
Contracting Division, Defense Microelectronics Activity stated that immediate action was
taken to improve internal controls and comply with the interim rule through additional
training and new documentation policies.


Our Response
We agree that the implementation of the recommendations as agreed to by the Chief,
Contracting Division, Defense Microelectronics Activity, should strengthen internal
controls.




                                                                                         DODIG-2014-011 │ 13
Finding



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 1
                 We recommend that the Director of Contracting, Missile Defense Agency,
                 emphasize the importance of the Federal Acquisition Regulation revisions to
                 contracting personnel for the use of cost‑reimbursement contracts in guidance and
                 training courses.


                 Missile Defense Agency Comments
                 The Director, Missile Defense Agency (MDA), agreed, stating that MDA officials will
                 emphasize the importance of the Federal Acquisition Regulation revisions for the use of
                 cost-reimbursement contracts to contracting personnel. MDA has already taken proactive
                 action to increase compliance by updating contract checklists to ensure specific revisions
                 are addressed. The director stated that additional guidance and training courses will
                 be implemented. The director stated that the changes outlined should be completed
                 in the second quarter of FY 2014.


                 Our Response
                 Comments from the Director, Missile Defense Agency, are responsive, and no further
                 comments are required.


                 Recommendation 2
                 We recommend that the Chief, Contracting Division, Defense Microelectronics
                 Activity:

                          a.	 Develop procedures that ensure a senior official approves all
                             cost-reimbursement contracts one level above the contracting officer.

                 Defense Microelectronics Activity Comments
                 The Chief, Contracting Division, Defense Microelectronics Activity, agreed, and
                 immediately established procedures that ensure a senior official is always available
                 to approve all contracts one level above the contracting officer.      According to the
                 chief, all applicable contract actions include this level of approval and are documented
                 in the contract file.




14 │ DODIG-2014-011
                                                                                                Finding



Our Response
Comments from the Chief, Contracting Division, Defense Microelectronics Activity,
are responsive, and no further comments are required.

        b.	Emphasize the importance of the Federal Acquisition Regulation
           revisions in guidance and training courses to contracting personnel
           for the use of cost-reimbursement contracts.

Defense Microelectronics Activity Comments
The Chief, Contracting Division, Defense Microelectronics Activity, agreed, and
immediately provided initial training as well as follow up guidance and refresher
training to contracting personnel emphasizing the importance of the Federal Acquisition
Regulation revisions regarding the use of cost-reimbursement contracts. The chief
stated that the use of cost-reimbursement contracts including the risks they pose
the Government continue to be a central and integral part of training.


Our Response
Comments from the Chief, Contracting Division, Defense Microelectronics Activity,
are responsive, and no further comments are required.

        c.	Provide guidance to contracting personnel that the nature of the
           Defense Microelectronics Activity’s contracts and the inability to
           transition to a firm-fixed-price contract needs to be documented
           in the contract file of cost-reimbursement contracts.

Defense Microelectronics Activity Comments
The Chief, Contracting Division, Defense Microelectronics Activity, agreed, and
immediately informed contracting personnel that the nature of the Activity’s
contracts and the inability to transition to firm-fixed-price needs to be documented
in the contract file of cost-reimbursement contracts.         The chief stated that all
applicable contract actions will include this documentation. Contracting personnel
also were provided additional guidance and follow-up training on the need to
specifically document the inability to transition to firm-fixed-price contracts given
the nature of the contracts.


Our Response
Comments from the Chief, Contracting Division, Defense Microelectronics Activity,
are responsive, and no further comments are required.



                                                                                      DODIG-2014-011 │ 15
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted work used as a basis for this report from February 2012 through
                 August 2012 under DoD IG Project No. D2012-D000CG-0121.000. In August 2012, we
                 decided to issue multiple reports as a result of those efforts. From August 2012 through
                 May 2013, we primarily performed work on other reports in this series. In May 2013,
                 we announced project DoD IG Project No. D2013-D000CG-0170.000 specifically for the
                 Missile Defense Agency (MDA) and the Defense Microelectronics Activity (DMEA)
                 contracts and conducted this performance audit through September 2013.              We
                 completed both projects in accordance with generally accepted government auditing
                 standards. Those standards require that we plan and perform the audit to obtain
                 sufficient, appropriate evidence to provide a reasonable basis for our findings and
                 conclusions based on our audit objective.     We believe that the evidence obtained
                 provides a reasonable basis for our findings and conclusions based on our
                 audit objective.

                 The criteria we applied to this audit included Federal Acquisition Regulation (FAR)
                 revisions required by section 864 of the Duncan Hunter National Defense Authorization
                 Act for Fiscal Year 2009 and implemented by the FAR interim rule, FAC 2005-50,
                 76  Federal Register 14542, “Proper Use and Management of Cost Reimbursement
                 Contracts” (March 16, 2011).        We also reviewed Defense Federal Acquisition
                 Regulation Supplement 242.7502, “Policy” and the Defense Federal Acquisition
                 Regulation Supplement Clause 252.242-7005, “Contractor Business Systems,” as well
                 as the Small Business Innovation Research (SBIR) policy directive.            The FAR
                 sections updated by the interim rule include FAR 1.602-2, “Responsibilities;”
                 FAR 1.604, “Contracting Officers Representative;” FAR 2.101, “Definitions;” FAR 7.103,
                 “Agency-Head Responsibilities;” FAR 7.104, “General Procedures;” FAR 7.105,
                 “Contents of Written Acquisition Plans;” FAR 16.103, “Negotiating Contract Types;”
                 FAR 16.104, “Factors in Selecting Contract Types;” FAR 16.301-2, “Application;”
                 FAR 16.301-3, “Limitations;” FAR 42.302, “Contract Administration Functions;” and
                 FAR subpart 50.1, “Extraordinary Contractual Actions.”

                 In addition to this report, we plan to issue separate reports for each Service and a
                 summary report. This is the third report in the planned series of reports. This audit
                 was required by the FY 2009 National Defense Authorization Act, section 864,
                 “Regulation on the Use of Cost Reimbursement Contracts.”         Our objective was to
                 determine whether DoD has complied with interim Federal Acquisition Regulation
                 revisions on the use of cost-reimbursement contracts.


16 │ DODIG-2014-011
                                                                                        Appendixes



To determine compliance with the interim rule, our methodology included
reviewing basic contract and task and delivery order files that varied slightly
from the specific interim rule requirements.      In cases where the interim rule
required areas to be documented in the Acquisition Plan, we expanded our review
to the entire contract file because, in many cases, the Acquisition Plan was written
and approved before the interim rule was issued.      Additionally, we focused our
audit to assess how contracting personnel determined that adequate resources
were available to monitor the award by determining whether a contracting officer’s
representative (COR) or similar person was assigned to the contract at issuance.
We did not determine whether the person assigned had an appropriate workload
or was properly geographically located to monitor the award.          We identified
the assignment of a COR on the contracts rather than testing the adequacy of the
COR assigned to the contract reviewed.    Additionally, we determined whether the
contracting officer documented that the contractor’s accounting system was adequate
at contract award and not during the entire period of contract performance as
required by the interim rule.


Universe and Sample Information
We used Federal Procurement Data System-Next Generation data to identify a
universe of cost-reimbursement, labor hour, and time and materials contracts issued
by Defense agencies and activities from March 17, 2011, through February 29, 2012.
We included task and delivery orders issued after March 17, 2011, in our universe
even if the basic contract was issued before the interim ruling.        We limited
the review to contracts valued at $150,000 or above.         We removed contract
modifications from our universe because they are not new contract awards.       We
eliminated contracts that were issued on General Service Administration contracts.
We queried all cost-reimbursement contracts from March 17, 2011 through
February 29, 2012. Our universe consisted of 971 contract actions, on 489 contracts,
valued at about $13.9 billion; this includes the value of all potential options and
any firm-fixed-price portions of the contracts.   To meet DoD Inspector General’s
audit requirement in Section 864 of the FY 2009 National Defense Authorization
Act, we determined that we would review one Defense agency and one Defense
activity. We chose MDA and DMEA based on a combination of cost-reimbursement
award amounts and number of cost-reimbursement contracts and task or delivery
orders issued.




                                                                                   DODIG-2014-011 │ 17
Appendixes



                 MDA had 161 contract actions, on 106 unique contracts, valued at about
                 $7.5 billion. We visited MDA (Huntsville, Alabama) and reviewed 39 contracts with
                 cost-reimbursement portions valued at about $1.26 billion.

                 DMEA had 130 contract actions, on 12 unique contracts, valued at about $674 million.
                 We selected contract actions to review based on date issued, dollar amount, and
                 other factors.   We visited DMEA (McClellan, California) and reviewed 49 of the
                 selected contracts with cost-reimbursement portions valued at about $408 million.


                 Review of Documentation and Interviews
                 We reviewed documentation maintained by the MDA and DMEA contracting offices.
                 The documents reviewed included Acquisition Plans, Pre/Post Price Negotiation
                 Memorandums, Determination and Finding for Contract Type, COR designation
                 letters, COR training certificates, Defense Contract Audit Agency audit reports, and
                 other documentation included in the contract file to comply with the interim rule. We
                 reviewed contract award documentation including basic contract files from FY 2007
                 through FY  2012. We interviewed personnel responsible for awarding contracts, as
                 well as quality assurance personnel, such as CORs, who were responsible for
                 monitoring the contracts.

                 At each site visited, we determined whether contracting personnel implemented the
                 interim rule by documenting:

                         •	 that the approval for the cost-reimbursement contract was at least one level
                            above the contracting officer;

                         •	 that the justification for the use of cost-reimbursement, time and materials,
                            or labor hour contracts;

                         •	 how the requirements under the contract could transition to firm-fixed-
                            price in the future;

                         •	 that Government resources were available to monitor the cost-
                            reimbursement contract; and

                         •	 whether the contractor had an adequate accounting system in place at
                            contract award.

                 We tested MDA and DMEA contracts to determine whether contracting personnel
                 were misclassifying cost-reimbursement contracts as firm-fixed-price contracts.




18 │ DODIG-2014-011
                                                                                          Appendixes



We used Federal Procurement Data System-Next Generation and Electronic
Document Access to review the firm-fixed-price contracts.          We reviewed between
40 and 50 firm-fixed-price contracts at each site to determine whether contracts
contained cost-reimbursement line items. Although we used these systems during
our audit, we did not use them as a material basis for our findings, recommendations,
or conclusions.


Use of Computer-Processed Data
We did not rely on computer-processed data for this audit.


Use of Technical Assistance
We worked with members of the DoD Office of Inspector General Quantitative
Methods Division during our planning phase to determine the number of sites to
visit and the number of contracts that should be reviewed at each site. They suggested
that we review a nonstatistical sample of at least 30 contracts per site.


Prior Coverage
During the last 5 years, the Government Accountability Office, the Department of
Defense Inspector General, the Department of Transportation Inspector General,
the Department of Homeland Security Inspector General, the General Services
Administration Inspector General, and the National Aeronautics and Space
Administration Inspector General have issued seven reports discussing oversight
of the use of cost-reimbursement contracts.           Government Accountability Office
reports can be accessed at www.gao.gov. Department of Defense Inspector General
reports can be accessed at www.dodig.mil. Department of Transportation Inspector
General Reports can be accessed at www.oig.dot.gov.            Department of Homeland
Defense Inspector General reports can be accessed at www.oig.dhs.gov.          General
Services Administration Inspector General reports can be accessed at www.gsaig.gov.
National Aeronautics and Space Administration Inspector General reports can be
accessed at www.oig.nasa.gov.


Government Accountability Office
Report No. GAO-09-921, “Contract Management: Extent of Federal Spending
Under Cost-Reimbursement Contracts Unclear and Key Controls Not Always Used,”
September 30, 2009




                                                                                     DODIG-2014-011 │ 19
Appendixes



                 Department of Defense Inspector General
                 Report No. DODIG-2013-120, “Army Needs Better Processes to Appropriately Justify
                 and Manage Cost-Reimbursement Contracts,” August 23, 2013

                 Report No. DODIG-2013-059, “Air Force Needs Better Processes to Appropriately
                 Justify and Manage Cost-Reimbursable Contracts,” March 21, 2013


                 Department of Transportation Inspector General
                 Report No. ZA-2013-118, “DOT Does Not Fully Comply With Revised Federal
                 Acquisition Regulations on the Use and Management of Cost-Reimbursement
                 Awards,” August 5, 2013


                 Department of Homeland Security Inspector General
                 Report No. OIG-12-133, “Department of Homeland Security Compliance with
                 the Federal Acquisition Regulation Revisions on Proper Use and Management of
                 Cost-Reimbursement Contracts,” September 28, 2012


                 General Services Administration Inspector General
                 Report No. A120052/Q/A/P12004, “Audit of GSA’s Cost-Reimbursement Contracts,”
                 March 30, 2012


                 National Aeronautics and Space Administration Inspector
                 General
                 Report No. IG-12-014, “Final Memorandum on NASA’s Compliance with Provisions
                 of the Duncan Hunter National Defense Authorization Act 2009–Management of
                 Cost-Reimbursement Contracts,” March 14, 2012




20 │ DODIG-2014-011
                                                                                                                                                                                                                  Appendixes




                                          Appendix B
                                          Federal Acquisition Circular 2005-50, Issued
                                          March 16, 2011

                                                               Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations                                               14543

                                              established new requirements for                        order to make this determination. The                 Item X—Technical Amendments
                                              agencies subject to Title 10, United                    rule further details, when this                         Editorial changes are made at FAR
                                              States Code. As a matter of policy, this                determination cannot be made, the                     19.201, 52.212–3, and 52.212–5.
                                              provision of law was applied to                         information which may be requested to
                                              contracts awarded by all executive                      determine price reasonableness.                          Dated: March 4, 2011.
                                              agencies. The rule requires that market                                                                       Millisa Gary,
                                                                                                      Item VII—Trade Agreements
                                              research must be conducted before an                                                                          Acting Director, Office of Governmentwide
                                                                                                      Thresholds (FAR Case 2009–040)                        Acquisition Policy.
                                              agency places a task or delivery order in
                                              excess of the simplified acquisition                       This final rule adopts, without                       Federal Acquisition Circular (FAC) 2005–
                                              threshold under an indefinite-delivery                  change, an interim rule that amended                  50 is issued under the authority of the
                                              indefinite-quantity contract. In addition,              the FAR to adjust the thresholds for                  Secretary of Defense, the Administrator of
                                              a prime contractor with a contract in                   application of the World Trade                        General Services, and the Administrator for
                                              excess of $5 million for the procurement                Organization Government Procurement                   the National Aeronautics and Space
                                                                                                      Agreement and the Free Trade                          Administration.
                                              of items other than commercial items is                                                                          Unless otherwise specified, all Federal
                                              required to conduct market research                     Agreements as determined by the
                                                                                                                                                            Acquisition Regulation (FAR) and other
                                              before making purchases that exceed the                 United States Trade Representative,                   directive material contained in FAC 2005–50
                                              simplified acquisition threshold. Among                 according to a pre-determined formula                 is effective March 16, 2011, except for Item
                                              other changes, the final rule also deletes              under the agreements.                                 IV which is effective April 15, 2011, and Item
                                              the language added to FAR 52.244–6                      Item VIII—Disclosure and Consistency                  II which is effective May 16, 2011.
                                              (Alternate I) and relocates it to a new                 of Cost Accounting Practices for                        Dated: March 4, 2011.
                                              FAR clause 52.210–1, Market Research.                   Contracts Awarded to Foreign Concerns                 Amy G. Williams,
                                              Item V—Socioeconomic Program Parity                     (FAR Case 2009–025)                                   Acting Deputy Director, Defense Procurement
                                              (FAR Case 2011–004) (Interim)                              This final rule adopts, without                    and Acquisition Policy (Defense Acquisition
                                                                                                      change, the interim rule that amended                 Regulations System).
                                                 This interim rule amends the FAR to
                                              implement section 1347 of the ‘‘Small                   the FAR to revise FAR 30.201–4(c),                      Dated: March 4, 2011.
                                              Business Jobs Act of 2010’’ (Pub. L. 111–               30.201–4(d)(1), 52.230–4, and 52.230–6                Joseph A. Neurauter,
                                              240) and the Small Business                             to maintain consistency between FAR                   Deputy Associate Administrator and Senior
                                              Administration regulations governing                    and Cost Accounting Standards (CAS)                   Procurement Executive, Office of Acquisition
                                              specific contracting and business                       regarding the administration of the Cost              Policy, U.S. General Services Administration.
                                              assistance programs. Section 1347                       Accounting Standard Board’s (CASB)                      Dated: February 28, 2011.
                                              changed the word ‘‘shall’’ to ‘‘may’’ at                rules, regulations and standards. This                Sheryl J. Goddard,
                                              section 31(b)(2)(B) of the Small Business               revision was necessitated by the CASB                 Acting Assistant Administrator for
                                              Act (15 U.S.C. 657a(b)(2)(B), thereby                   publishing a final rule in the Federal                Procurement National Aeronautics and Space
                                              permitting a contracting officer to use                 Register on March 26, 2008 (73 FR                     Administration.
                                              discretion when determining whether                     15939) which implemented the revised                  [FR Doc. 2011–5551 Filed 3–15–11; 8:45 am]
                                              an acquisition will be restricted to a                  clause, Disclosure and Consistency of                 BILLING CODE 6820–EP–P
                                              small business participating in the 8(a)                Cost Accounting Practices—Foreign
                                              Business Development Program, the                       Concerns, in CAS-covered contracts and
                                              Historically Underutilized Business                     subcontracts awarded to foreign                       DEPARTMENT OF DEFENSE
                                              Zone Program, or the Service-Disabled                   concerns.
                                              Veteran-Owned Small Business                                                                                  GENERAL SERVICES
                                                                                                      Item IX—Compensation for Personal                     ADMINISTRATION
                                              Program.                                                Services (FAR Case 2009–026)
                                              Item VI—Use of Commercial Services                         This final rule adopts, without                    NATIONAL AERONAUTICS AND
                                              Item Authority (FAR Case 2008–034)                      change, the interim rule that amended                 SPACE ADMINISTRATION
                                                 This final rule adopts, without                      the FAR to align the existing FAR
                                              change, an interim rule that                            31.205–6(q)(2)(i) through (vi) with the               48 CFR Parts 1, 2, 7, 16, 32, 42, and 50
                                              implemented section 868 of the Duncan                   changes made in Cost Accounting                       [FAC 2005–50; FAR Case 2008–030; Item
                                              Hunter National Defense Authorization                   Standards (CAS) Board standards 412                   I; Docket 2011–0082, Sequence 1]
                                              Act for Fiscal Year 2009 (Pub. L. 110–                  ‘‘Cost Accounting Standard for
                                              417). Section 868 provides that the FAR                 composition and measurement of                        RIN 9000–AL78
                                              shall be amended with respect to the                    pension cost,’’ and 415 ‘‘Accounting for
                                                                                                                                                            Federal Acquisition Regulation; Proper
                                              procurement of commercial services                      the cost of deferred compensation.’’
                                                                                                                                                            Use and Management of Cost-
                                              that are not offered and sold                           Formerly, the applicable CAS standard
                                                                                                                                                            Reimbursement Contracts
                                              competitively in substantial quantities                 for measuring, assigning, and allocating
                                              in the commercial marketplace, but are                  the costs of Employee Stock Ownership                 AGENCIES:  Department of Defense (DoD),
                                              of a type offered and sold competitively                Plans (ESOPs) depended on whether the                 General Services Administration (GSA),
                                              in substantial quantities in the                        ESOP met the definition of a pension                  and National Aeronautics and Space
                                              commercial marketplace. Such services                   plan at FAR 31.001. Costs for ESOPs                   Administration (NASA).
                                              may be considered commercial items                      meeting the definition of a pension plan              ACTION: Interim rule with request for
                                              only if the contracting officer has                     at FAR 31.001 were covered by CAS                     comments.
                                              determined in writing that the offeror                  412, while the costs for ESOPs not
jlentini on DSKJ8SOYB1PROD with RULES2




                                              has submitted sufficient information to                 meeting the definition of a pension plan              SUMMARY:   DoD, GSA, and NASA are
                                              evaluate, through price analysis, the                   at FAR 31.001 were covered by CAS                     issuing an interim rule amending the
                                              reasonableness of the price for these                   415. Now, regardless of whether an                    Federal Acquisition Regulation (FAR) to
                                              services.                                               ESOP meets the definitions of a pension               implement section 864 of the Duncan
                                                 The rule details the information the                 plan at FAR 31.001, all costs of ESOPs                Hunter National Defense Authorization
                                              contracting officer may consider in                     are covered by CAS 415.                               Act for Fiscal Year 2009. This law aligns


                                         VerDate Mar<15>2010   18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00003   Fmt 4701   Sfmt 4700   E:\FR\FM\16MRR2.SGM   16MRR2




                                                                                                                                                                                                             DODIG-2014-011 │ 21
Appendixes



                                                         Federal Acquisition Circular 2005-50, Issued
                                                         March 16, 2011 (cont’d)

                                                             14544            Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations

                                                             with the Presidential Memorandum on                        Section 864 requires the FAR to be                 contract type in accordance with FAR
                                                             Government Contracting, issued on                       revised to address the use and                        subpart 16.1; ensure that the statement
                                                             March 4, 2009, which directed agencies                  management of cost-reimbursement                      of work is closely aligned with the
                                                             to save $40 billion in contracting                      contracts and identifies the following                performance outcomes and cost
                                                             annually by Fiscal Year (FY) 2011 and                   three areas that the Defense Acquisition              estimates; and obtain an approval and
                                                             to reduce the use of high-risk contracts.               Regulation Council and the Civilian                   signature from the appropriate
                                                             This rule provides regulatory guidance                  Agency Acquisition Council (Councils)                 acquisition official at least one level
                                                             on the proper use and management of                     should consider in amending the FAR—                  above the contracting officer. FAR
                                                             other than firm-fixed-price contracts                      (a) Circumstances when cost-                       7.105(b)(5)(iv) was added to discuss the
                                                             (e.g., cost-reimbursement, time-and-                    reimbursement contracts are                           strategy to transition from cost-
                                                             material, and labor-hour).                              appropriate;                                          reimbursement contracts to firm-fixed-
                                                             DATES: Effective Date: March 16, 2011.                     (b) Acquisition plan findings to                   price contracts. Although FAR
                                                                Comment Date: Interested parties                     support the selection of a cost-                      7.105(b)(5), Acquisition considerations,
                                                             should submit written comments to the                   reimbursement contract; and                           requires the acquisition plans to include
                                                             Regulatory Secretariat on or before May                    (c) Acquisition resources necessary to             a discussion of contract type selection
                                                             16, 2011 to be considered in the                        award and manage a cost-                              and rationale, the Councils believe that
                                                             formulation of a final rule.                            reimbursement contract.                               a greater emphasis on the use of cost-
                                                                                                                        1. Guidance on Cost-reimbursement                  reimbursement contracts should be
                                                             ADDRESSES: Submit comments
                                                                                                                     contracts. As required, the Councils                  added and included a new paragraph at
                                                             identified by FAC 2005–50, FAR Case                     included additional coverage at FAR
                                                             2008–030, by any of the following                                                                             FAR 7.105(b)(3), Contract type selection.
                                                                                                                     subpart 16.1, Selecting Contract Types,               Additionally, FAR 16.301–3(a) has been
                                                             methods:                                                and at subpart 16.3, Cost-
                                                                • Regulations.gov: http://                                                                                 amended and renumbered.
                                                                                                                     Reimbursement Contracts, to provide                      3. Acquisition workforce resources.
                                                             www.regulations.gov. Submit comments
                                                                                                                     further guidance as to when, and under                The Councils recognize that assigning
                                                             via the Federal eRulemaking portal by
                                                                                                                     what circumstances, cost-                             adequate and proper resources to
                                                             inputting ‘‘FAR Case 2008–030’’ under
                                                                                                                     reimbursement contracts are                           support the solicitation, award, and
                                                             the heading ‘‘Enter Keyword or ID’’ and
                                                                                                                     appropriate. Therefore, this rule makes               administration of other than firm-fixed-
                                                             selecting ‘‘Search.’’ Select the link
                                                                                                                     the following changes:                                price contracts (cost-reimbursement,
                                                             ‘‘Submit a Comment’’ that corresponds                      • FAR 16.103, Negotiating contract                 time-and-material, and labor-hour)
                                                             with ‘‘FAR Case 2008–030.’’ Follow the                  type, is amended to revise paragraph (d)              contract is challenging. There is also
                                                             instructions provided at the ‘‘Submit a                 to reflect additional documentation                   great concern that a lack of involvement
                                                             Comment’’ screen. Please include your                   when other than a firm-fixed-price                    in contract oversight by program offices
                                                             name, company name (if any), and ‘‘FAR                  contract type is selected.                            is primarily present in other than firm-
                                                             Case 2008–030’’ on your attached                           • FAR 16.104, Factors in selecting                 fixed-price contracts. Therefore, from
                                                             document.                                               contract types, is amended to add a new               the outset, contracting officers should be
                                                                • Fax: (202) 501–4067.                               paragraph (e) to provide guidance to the              assured, to the greatest extent
                                                                • Mail: General Services                             contracting officer to consider                       practicable, that the right resources in
                                                             Administration, Regulatory Secretariat                  combining contract types if the entire                number, kind, and availability be
                                                             (MVCB), ATTN: Hada Flowers, 1275                        contract cannot be firm fixed-price.                  assigned to support other than firm-
                                                             First Street, NE., 7th Floor, Washington,                  • FAR 16.301–2, Application, is                    fixed-price contracts. The Councils
                                                             DC 20417.                                               amended to provide guidance to the                    consider that greater accountability for
                                                                Instructions: Please submit comments                 contracting officer as to the                         the management and oversight of all
                                                             only and cite FAC 2005–50, FAR Case                     circumstances in which to use cost-                   contracts, especially other than firm-
                                                             2008–030, in all correspondence related                 reimbursement contracts as well as                    fixed-price contracts, can be gained and
                                                             to this case. All comments received will                outlining the rationale for                           improved by requiring that properly
                                                             be posted without change to http://                     documentation for selecting this                      trained CORs or COTRs (see FAR
                                                             www.regulations.gov, including any                      contract type.                                        2.101(b)(2), Definitions) be appointed
                                                             personal and/or business confidential                      • FAR 16.301–3, Limitations, is                    before award. Therefore, FAR 7.104,
                                                             information provided.                                   amended to (1) provide additional                     General Procedures, and FAR 16.301–
                                                             FOR FURTHER INFORMATION CONTACT: For                    guidance to the contracting officer as to             3(a)(4)(i) are amended to reflect that
                                                             clarification of content, contact Lori                  when a cost-reimbursement contract                    prior to award of a contract, especially
                                                             Sakalos, Procurement Analyst, at (202)                  may be used, (2) ensure that all factors              on other than firm-fixed price contracts,
                                                             208–0498. For information pertaining to                 have been considered per FAR 16.104,                  at least one COR or COTR qualified in
                                                             status or publication schedules, contact                and (3) ensure that adequate                          accordance with FAR 1.602–2 is
                                                             the Regulatory Secretariat at (202) 501–                Government resources are available to                 designated. FAR 1.602–2,
                                                             4755. Please cite FAC 2005–50, FAR                      award and manage this type of contract.               Responsibilities, is amended to add a
                                                             Case 2008–030.                                             • FAR 7.104(e) also requires the                   new paragraph (d) outlining the
                                                             SUPPLEMENTARY INFORMATION:                              designation of a properly trained                     requirement for the contracting officer
                                                                                                                     contracting officer’s representative                  to designate and authorize, in writing, a
                                                             I. Background                                           (COR) (or contracting officer’s technical             COR on contracts and orders, as
                                                                This case implements section 864 of                  representative (COTR)) prior to award of              appropriate. Additionally, a new section
                                                             the Duncan Hunter National Defense                      the contract or order.                                was added at FAR 1.604, Contracting
                                                             Authorization Act for Fiscal Year 2009                     2. Identification of acquisition plan              officer’s representative, outlining the
               jlentini on DSKJ8SOYB1PROD with RULES2




                                                             (Pub. L. 110–417), enacted October 14,                  findings. FAR 7.103, Agency-head                      COR’s duties.
                                                             2008. This law aligns with the                          responsibilities, is amended and                         4. Contract administration functions.
                                                             President’s goal of reducing high-risk                  renumbered to add new paragraphs                      A new paragraph was added at FAR
                                                             contracting as denoted in the March 4,                  7.103(d), 7.103(f), and 7.103(j) to ensure            42.302(a)(12) to require that the
                                                             2009, Presidential Memorandum on                        that acquisition planners document the                contracting officer determine the
                                                             Government Contracting.                                 file to support the selection of the                  continuing adequacy of the contractor’s


                                                        VerDate Mar<15>2010   18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00004   Fmt 4701   Sfmt 4700   E:\FR\FM\16MRR2.SGM   16MRR2




22 │ DODIG-2014-011
                                                                                                                                                                                                              Appendixes



                                          Federal Acquisition Circular 2005-50, Issued
                                          March 16, 2011 (cont’d)

                                                               Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations                                           14545

                                              accounting system during the entire                     compelling reasons exist to promulgate                  (3) Must be qualified by training and
                                              period of contract performance. Also,                   this interim rule without prior                       experience commensurate with the
                                              paragraph (a)(12) was added to the list                 opportunity for public comment. This                  responsibilities to be delegated in
                                              of functions at FAR 42.302(a) that                      action is necessary because section 864               accordance with department/agency
                                              cannot be retained and that must be                     of the Duncan Hunter National Defense                 guidelines;
                                              delegated by the contracting officer                    Authorization Act for Fiscal Year 2009,                 (4) May not be delegated
                                              when delegating contract administration                 enacted October 14, 2008, directs that it             responsibility to perform functions that
                                              functions to a contract administration                  must be implemented within 270 days                   have been delegated under 42.202 to a
                                              office in accordance with FAR                           from enactment. This rule is also urgent              contract administration office, but may
                                              42.202(a).                                              because this law requires the Inspector               be assigned some duties at 42.302 by the
                                                                                                      General to conduct a compliance review                contracting officer;
                                              II. Executive Order 12866
                                                                                                      for each executive agency, one year after               (5) Has no authority to make any
                                                 This is a significant regulatory action              the regulations have been promulgated,                commitments or changes that affect
                                              and, therefore, was subject to review                   on the use of cost-reimbursement                      price, quality, quantity, delivery, or
                                              under Section 6(b) of Executive Order                   contracts and include the results of their            other terms and conditions of the
                                              12866, Regulatory Planning and Review,                  findings in the IG’s next semiannual                  contract; and
                                              dated September 30, 1993. This rule is                  report. However, pursuant to 41 U.S.C.                  (6) Must be designated in writing,
                                              not a major rule under 5 U.S.C. 804.                    1707 and FAR 1.501–3(b), DoD, GSA,                    with copies furnished to the contractor
                                              III. Regulatory Flexibility Act                         and NASA will consider public                         and the contract administration office—
                                                                                                      comments received in response to this                   (i) Specifying the extent of the COR’s
                                                 DoD, GSA, and NASA do not expect                     interim rule in the formation of the final            authority to act on behalf of the
                                              this interim rule to have a significant                 rule.                                                 contracting officer;
                                              economic impact on a substantial                                                                                (ii) Identifying the limitations on the
                                              number of small entities within the                     List of Subjects in 48 CFR Parts 1, 2, 7,
                                                                                                                                                            COR’s authority;
                                              meaning of the Regulatory Flexibility                   16, 32, 42, and 50                                      (iii) Specifying the period covered by
                                              Act, 5 U.S.C. 601, et seq., because                         Government procurement.                           the designation;
                                              section 864 affects only internal                                                                               (iv) Stating the authority is not
                                                                                                       Dated: March 4, 2011.
                                              Government operations and requires the                                                                        redelegable; and
                                              Government to establish internal                        Millisa Gary,
                                                                                                                                                              (v) Stating that the COR may be
                                              guidance on the proper use and                          Acting Director, Office of Governmentwide
                                                                                                      Acquisition Policy Division.                          personally liable for unauthorized acts.
                                              management of all contracts especially
                                                                                                                                                            ■ 3. Amend section 1.603 by revising
                                              other than firm-fixed-price contracts                     Therefore, DoD, GSA, and NASA
                                                                                                      amend 48 CFR parts 1, 2, 7, 16, 32, 42,               the section heading to read as follows:
                                              (e.g., cost-reimbursement, time-and-
                                              material, and labor-hour) and does not                  and 50 as set forth below:                            1.603 Selection, appointment, and
                                              impose any additional requirements on                   ■ 1. The authority citation for 48 CFR                termination of appointment for contracting
                                              small businesses.                                       parts 1, 2, 7, 16, 32, 42, and 50                     officers.
                                                 Therefore, an Initial Regulatory                     continues to read as follows:                         *     *    *     *    *
                                              Flexibility Analysis has not been                         Authority: 40 U.S.C. 121(c); 10 U.S.C.              ■ 4. Add section 1.604 to read as
                                              performed. DoD, GSA, and NASA invite                    chapter 137; and 42 U.S.C. 2473(c).                   follows:
                                              comments from small business entities
                                              and other interested parties on the                     PART 1—FEDERAL ACQUISITION                            1.604 Contracting Officer’s Representative
                                              expected impact of this rule on small                   REGULATIONS SYSTEM                                    (COR).
                                              entities.                                                                                                        A contracting officer’s representative
                                                 DoD, GSA, and NASA will also                         ■ 2. Amend section 1.602–2 by adding                  (COR) assists in the technical
                                              consider comments from small entities                   paragraph (d) to read as follows:                     monitoring or administration of a
                                              concerning the existing regulations in                                                                        contract (see 1.602–2(d)). The COR shall
                                                                                                      1.602–2    Responsibilities.
                                              subparts affected by the rule in                                                                              maintain a file for each assigned
                                              accordance with 5 U.S.C. 610. Interested                *      *     *    *      *                            contract. The file must include, at a
                                              parties must submit such comments                          (d) Designate and authorize, in                    minimum—
                                              separately and should cite 5 U.S.C. 610                 writing, a contracting officer’s                         (a) A copy of the contracting officer’s
                                              (FAC 2005–50, FAR Case 2008–030) in                     representative (COR) on all contracts                 letter of designation and other
                                              correspondence.                                         and orders other than those that are                  documents describing the COR’s duties
                                                                                                      firm-fixed price, and for firm-fixed-price            and responsibilities;
                                              IV. Paperwork Reduction Act                             contracts and orders as appropriate.                     (b) A copy of the contract
                                                The changes to the FAR do not                         However, the contracting officer is not               administration functions delegated to a
                                              impose information collection                           precluded from retaining and executing                contract administration office which
                                              requirements that require the approval                  the COR duties as appropriate. See                    may not be delegated to the COR (see
                                              of the Office of Management and Budget                  7.104(e). A COR—                                      1.602–2(d)(4)); and
                                              under the Paperwork Reduction Act (44                      (1) Must be a Government employee,                    (c) Documentation of COR actions
                                              U.S.C. chapter 35).                                     unless otherwise authorized in agency                 taken in accordance with the delegation
                                                                                                      regulations;                                          of authority.
                                              V. Determination To Issue an Interim                       (2) Shall be certified and maintain
                                              Rule                                                    certification in accordance with the                  PART 2—DEFINITIONS OF WORDS
jlentini on DSKJ8SOYB1PROD with RULES2




                                                A determination has been made under                   Office of Management and Budget                       AND TERMS
                                              the authority of the Secretary of Defense               memorandum entitled ‘‘The Federal
                                              (DoD), the Administrator of General                     Acquisition Certification for Contracting             ■ 5. Amend section 2.101 in paragraph
                                              Services (GSA), and the Administrator                   Officer Technical Representatives’’                   (b)(2) by adding, in alphabetical order,
                                              of the National Aeronautics and Space                   dated November 26, 2007, or for DoD,                  the definition ‘‘Contracting officer’s
                                              Administration (NASA) that urgent and                   DoD Regulations, as applicable;                       representative (COR)’’ to read as follows:


                                         VerDate Mar<15>2010   18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00005   Fmt 4701   Sfmt 4700   E:\FR\FM\16MRR2.SGM   16MRR2




                                                                                                                                                                                                         DODIG-2014-011 │ 23
Appendixes



                                                         Federal Acquisition Circular 2005-50, Issued
                                                         March 16, 2011 (cont’d)


                                                             14546             Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations

                                                             2.101   Definitions.                                     approved and signed at least one level                requirements, e.g., contract line items
                                                             *     *     *     *     *                                above the contracting officer.                        (CLINS), in a manner that will permit
                                                               (b) * * *                                              *     *    *     *     *                              some, if not all, of the requirements to
                                                               (2) * * *                                              ■ 8. Amend section 7.104 by adding
                                                                                                                                                                            be awarded on a firm-fixed-price basis,
                                                               Contracting officer’s representative                   paragraph (e) to read as follows:                     either in the current contract, future
                                                             (COR) means an individual, including a                                                                         option years, or follow-on contracts.
                                                             contracting officer’s technical                          7.104    General procedures.                          This will facilitate an easier transition to
                                                             representative (COTR), designated and                    *      *     *     *     *                            a firm-fixed-price contact because a cost
                                                             authorized in writing by the contracting                    (e) The planner shall ensure that a                history will be developed for a recurring
                                                             officer to perform specific technical or                 COR is nominated by the requirements                  definitive requirement.
                                                             administrative functions.                                official, and designated and authorized               *     *     *     *      *
                                                             *     *     *     *     *                                by the contracting officer, as early as
                                                                                                                      practicable in the acquisition process.               PART 16—TYPES OF CONTRACTS
                                                             PART 7—ACQUISITION PLANNING                              The contracting officer shall designate
                                                                                                                      and authorize a COR as early as                       ■ 10. Amend section 16.103 by revising
                                                             ■ 6. Amend section 7.102 by adding                                                                             paragraphs (d)(1) and (2) to read as
                                                                                                                      practicable after the nomination. See
                                                             paragraph (a)(3) to read as follows:                                                                           follows:
                                                                                                                      1.602–2(d).
                                                             7.102   Policy.                                          ■ 9. Amend section 7.105 by—                          16.103    Negotiating contract type.
                                                               (a) * * *                                              ■ a. Removing from the first sentence of              *       *    *     *    *
                                                               (3) Selection of appropriate contract                  the introductory text the words ‘‘see                    (d) * * *
                                                             type in accordance with part 16.                         paragraph (b)(19)’’ and adding the words                 (1) Each contract file shall include
                                                             *     *     *    *     *                                 ‘‘see paragraph (b)(21)’’ in their place;             documentation to show why the
                                                                                                                      ■ b. Redesignating paragraphs (b)(3)                  particular contract type was selected.
                                                             ■ 7. Amend section 7.103 by—
                                                             ■ a. Redesignating paragraphs (e)
                                                                                                                      through (b)(21) as paragraphs (b)(4)                  This shall be documented in the
                                                             through (w) as paragraphs (g) through                    through (b)(22), respectively;                        acquisition plan, or if a written
                                                                                                                      ■ c. Adding a new paragraph (b)(3);                   acquisition plan is not required, in the
                                                             (y);
                                                             ■ b. Redesignating paragraph (d) as                      ■ d. Removing from newly redesignated                 contract file.
                                                             paragraph (e);                                           paragraph (b)(5)(i) the words ‘‘contract                 (i) Explain why the contract type
                                                             ■ c. Adding a new paragraph (d);                         type selection (see part 16);’’;                      selected must be used to meet the
                                                             ■ d. Revising newly redesignated                         ■ e. Removing from newly redesignated                 agency need.
                                                             paragraph (e);                                           paragraph (b)(5)(ii)(A) the words ‘‘see                  (ii) Discuss the Government’s
                                                             ■ e. Adding a new paragraph (f); and                     7.103(t)’’ and adding the words ‘‘see                 additional risks and the burden to
                                                             ■ f. Revising newly redesignated                         7.103(v)’’ in its place; and                          manage the contract type selected (e.g.,
                                                             paragraph (j).                                           ■ f. Adding paragraph (b)(5)(iv).                     when a cost-reimbursement contract is
                                                               The added and revised text reads as                       The added text reads as follows:                   selected, the Government incurs
                                                             follows:                                                                                                       additional cost risks, and the
                                                                                                                      7.105 Contents of written acquisition
                                                                                                                      plans.                                                Government has the additional burden
                                                             7.103   Agency-head responsibilities.
                                                                                                                                                                            of managing the contractor’s costs). For
                                                             *      *     *    *      *                               *      *     *    *     *                             such instances, acquisition personnel
                                                                (d) Ensuring that acquisition planners                   (b) * * *                                          shall discuss—
                                                             document the file to support the                            (3) Contract type selection. Discuss                  (A) How the Government identified
                                                             selection of the contract type in                        the rationale for the selection of contract           the additional risks (e.g., pre-award
                                                             accordance with subpart 16.1.                            type. For other than firm-fixed-price                 survey, or past performance
                                                                (e) Establishing criteria and                         contracts, see 16.103(d) for additional               information);
                                                             thresholds at which increasingly greater                 documentation guidance. Acquisition                      (B) The nature of the additional risks
                                                             detail and formality in the planning                     personnel shall document the                          (e.g., inadequate contractor’s accounting
                                                             process is required as the acquisition                   acquisition plan with findings that                   system, weaknesses in contractor’s
                                                             becomes more complex and costly,                         detail the particular facts and                       internal control, non-compliance with
                                                             including for cost-reimbursement and                     circumstances, (e.g., complexity of the               Cost Accounting Standards, or lack of or
                                                             other high-risk contracts (e.g., other than              requirements, uncertain duration of the               inadequate earned value management
                                                             firm-fixed-price contracts) requiring a                  work, contractor’s technical capability               system); and
                                                             written acquisition plan. A written plan                 and financial responsibility, or                         (C) How the Government will manage
                                                             shall be prepared for cost                               adequacy of the contractor’s accounting               and mitigate the risks.
                                                             reimbursement and other high-risk                        system), and associated reasoning                        (iii) Discuss the Government
                                                             contracts other than firm-fixed-price                    essential to support the contract type                resources necessary to properly plan for,
                                                             contracts, although written plans may                    selection. The contracting officer shall              award, and administer the contract type
                                                             be required for firm-fixed-price                         ensure that requirements and technical                selected (e.g., resources needed and the
                                                             contracts as appropriate.                                personnel provide the necessary                       additional risks to the Government if
                                                                (f) Ensuring that the statement of work               documentation to support the contract                 adequate resources are not provided).
                                                             is closely aligned with performance                      type selection.                                          (iv) For other than a firm-fixed price
                                                             outcomes and cost estimates.                             *      *     *    *     *                             contract, at a minimum the
                                                             *      *     *    *      *                                  (5) * * *                                          documentation should include—
               jlentini on DSKJ8SOYB1PROD with RULES2




                                                                (j) Reviewing and approving                              (iv) For each contract (and order)                    (A) An analysis of why the use of
                                                             acquisition plans and revisions to these                 contemplated, discuss the strategy to                 other than a firm-fixed-price contract
                                                             plans to ensure compliance with FAR                      transition to firm-fixed-price contracts              (e.g., cost reimbursement, time and
                                                             requirements including 7.104 and part                    to the maximum extent practicable.                    materials, labor hour) is appropriate;
                                                             16. For other than firm-fixed-price                      During the requirements development                      (B) Rationale that detail the particular
                                                             contracts, ensuring that the plan is                     stage, consider structuring the contract              facts and circumstances (e.g.,


                                                        VerDate Mar<15>2010    18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00006   Fmt 4701   Sfmt 4700   E:\FR\FM\16MRR2.SGM   16MRR2




24 │ DODIG-2014-011
                                                                                                                                                                                                                  Appendixes



                                          Federal Acquisition Circular 2005-50, Issued
                                          March 16, 2011 (cont’d)


                                                               Federal Register / Vol. 76, No. 51 / Wednesday, March 16, 2011 / Rules and Regulations                                               14547

                                              complexity of the requirements,                         ensure that the contractor’s accounting               PART 32—CONTRACT FINANCING
                                              uncertain duration of the work,                         system will permit timely development
                                              contractor’s technical capability and                   of all necessary cost data in the form                32.1007    [Amended]
                                              financial responsibility, or adequacy of                required by the proposed contract type.
                                                                                                                                                            ■ 14. Amend section 32.1007 by
                                              the contractor’s accounting system), and                This factor may be critical—
                                                                                                        (1) When the contract type requires                 removing from paragraph (a) ‘‘(see
                                              associated reasoning essential to
                                              support the contract type selection;                    price revision while performance is in                42.302(a)(12))’’ and adding ‘‘(see
                                                 (C) An assessment regarding the                      progress; or                                          42.302(a)(13))’’ in its place.
                                              adequacy of Government resources that                     (2) When a cost-reimbursement
                                                                                                      contract is being considered and all                  PART 42—CONTRACT
                                              are necessary to properly plan for,
                                              award, and administer other than firm-                  current or past experience with the                   ADMINISTRATION AND AUDIT
                                              fixed-price contracts; and                              contractor has been on a fixed-price                  SERVICES
                                                 (D) A discussion of the actions                      basis. See 42.302(a)(12).
                                              planned to minimize the use of other                    *      *    *     *    *                              ■  15. Amend section 42.302 by—
                                              than firm-fixed-price contracts on future               ■ 12. Revise section 16.301–2 to read as              ■  a. Removing from the introductory
                                              acquisitions for the same requirement                   follows:                                              text of paragraph (a) the words
                                              and to transition to firm-fixed-price                                                                         ‘‘paragraphs (a)(5), (a)(9), and (a)(11)’’
                                              contracts to the maximum extent                         16.301–2     Application.                             and adding the words ‘‘paragraphs (a)(5),
                                              practicable.                                              (a) The contracting officer shall use               (a)(9), (a)(11), and (a)(12)’’ in their place;
                                                 (v) A discussion of why a level-of-                  cost-reimbursement contracts only
                                                                                                                                                            ■ b. Redesignating paragraphs (a)(12)
                                              effort, price redetermination, or fee                   when—
                                              provision was included.                                   (1) Circumstances do not allow the                  through (a)(26) as paragraphs (a)(13)
                                                 (2) Exceptions to the requirements at                agency to define its requirements                     through (a)(27); and
                                              (d)(1) of this section are—                             sufficiently to allow for a fixed-price               ■ c. Adding a new paragraph (a)(12) to
                                                 (i) Fixed-price acquisitions made                    type contract (see 7.105); or                         read as follows:
                                              under simplified acquisition                              (2) Uncertainties involved in contract
                                              procedures;                                             performance do not permit costs to be                 42.302    Contract administration functions.
                                                 (ii) Contracts on a firm-fixed-price                 estimated with sufficient accuracy to                    (a) * * *
                                              basis other than those for major systems                use any type of fixed-price contract.
                                              or research and development; and                          (b) The contracting officer shall                      (12) Determine the adequacy of the
                                                 (iii) Awards on the set-aside portion                document the rationale for selecting the              contractor’s accounting system. The
                                              of sealed bid partial set-asides for small              contract type in the written acquisition              contractor’s accounting system should
                                              business.                                               plan and ensure that the plan is                      be adequate during the entire period of
                                                                                                      approved and signed at least one level                contract performance. The adequacy of
                                              *       *    *     *     *
                                                                                                      above the contracting officer (see                    the contractor’s accounting system and
                                              ■ 11. Amend section 16.104 by—
                                                                                                      7.103(j) and 7.105). If a written                     its associated internal control system, as
                                              ■ a. Redesignating paragraphs (e)
                                                                                                      acquisition plan is not required, the                 well as contractor compliance with the
                                              through (k) as paragraphs (f) through (l),              contracting officer shall document the                Cost Accounting Standards (CAS), affect
                                              respectively;                                           rationale in the contract file. See also
                                              ■ b. Adding a new paragraph (e);
                                                                                                                                                            the quality and validity of the contractor
                                                                                                      16.103(d).                                            data upon which the Government must
                                              ■ c. Removing from newly redesignated
                                                                                                      ■ 13. Amend section 16.301–3 by                       rely for its management oversight of the
                                              paragraph (f) the words ‘‘incentives to
                                                                                                      revising paragraph (a) to read as follows:            contractor and contract performance.
                                              ensure’’ and adding the words
                                              ‘‘incentives tailored to performance                    16.301–3     Limitations.                             *      *     *    *     *
                                              outcomes to ensure’’ in their place;                      (a) A cost-reimbursement contract
                                              ■ d. Removing from newly redesignated                   may be used only when—                                PART 50—EXTRAORDINARY
                                              paragraph (g) the words ‘‘price                           (1) The factors in 16.104 have been                 CONTRACTURAL ACTIONS AND THE
                                              adjustment terms’’ and adding the words                 considered;                                           SAFETY ACT
                                              ‘‘price adjustment or price                               (2) A written acquisition plan has
                                              redetermination clauses’’ in their place;                                                                     50.205–1    [Amended]
                                                                                                      been approved and signed at least one
                                              and                                                     level above the contracting officer;                  ■  16. Amend section 50.205–1 by
                                              ■ e. Revising newly redesignated                          (3) The contractor’s accounting                     removing from the first sentence in
                                              paragraph (i).                                          system is adequate for determining costs              paragraph (b) the words ‘‘(see FAR
                                                 The added and revised text reads as                  applicable to the contract; and
                                                                                                                                                            7.105(b)(19)(v))’’ and adding the words
                                              follows:                                                  (4) Adequate Government resources
                                                                                                      are available to award and manage a                   ‘‘(see 7.105(b)(20)(v))’’ in their place.
                                              16.104    Factors in selecting contract types.          contract other than firm-fixed-priced                 [FR Doc. 2011–5552 Filed 3–15–11; 8:45 am]
                                              *      *    *    *     *                                (see 7.104(e)) including—                             BILLING CODE 6820–EP–P
                                                 (e) Combining contract types. If the                    (i) Designation of at least one
                                              entire contract cannot be firm-fixed-                   contracting officer’s representative
                                              price, the contracting officer shall                    (COR) qualified in accordance with
                                              consider whether or not a portion of the                1.602–2 has been made prior to award
                                              contract can be established on a firm-                  of the contract or order; and
jlentini on DSKJ8SOYB1PROD with RULES2




                                              fixed-price basis.                                         (ii) Appropriate Government
                                              *      *    *    *     *                                surveillance during performance to
                                                 (i) Adequacy of the contractor’s                     provide reasonable assurance that
                                              accounting system. Before agreeing on a                 efficient methods and effective cost
                                              contract type other than firm-fixed-                    controls are used.
                                              price, the contracting officer shall                    *       *   *     *      *


                                         VerDate Mar<15>2010   18:19 Mar 15, 2011   Jkt 223001   PO 00000   Frm 00007   Fmt 4701   Sfmt 9990   E:\FR\FM\16MRR2.SGM   16MRR2




                                                                                                                                                                                                             DODIG-2014-011 │ 25
Appendixes




Appendix C
Contract Compliance with Interim Rule Requirements
(Base Documentation Applies to Orders)

                                         Order Number        Site                                                            Accounting   Not-To-Exceed CR
                Contract Number          (if applicable)   Location    Approval    Justification   Transition   Monitoring     System          Value
   1           HQ0147-11-C-7718                              MDA          No           Yes            Yes          Yes          Yes        $     1,000,000
   2           HQ0147-11-C-0013                              MDA          Yes          Yes            Yes          Yes          Yes              4,251,761
   3           HQ0147-12-C-7743                              MDA          No           Yes            Yes          Yes          Yes               999,983
   4           HQ0147-12-C-7716                              MDA          No           Yes            Yes          Yes          Yes              1,000,000
   5           HQ0147-11-C-7738                              MDA          No           Yes            Yes          Yes          Yes               999,989
   6           HQ0147-11-C-7744                              MDA          No           Yes            Yes          Yes          Yes               999,993
   7           HQ0147-11-C-7694                              MDA          No           Yes            Yes          Yes          No                249,631
   8           HQ0147-11-C-0016                              MDA          Yes          Yes            Yes          Yes          Yes             13,573,003
   9           HQ0147-11-D-0015                              MDA          Yes          Yes            Yes          Yes          Yes            595,000,000
   10          HQ0147-10-D-0022               0005           MDA          Yes          Yes            Yes          Yes          Yes              2,235,466
   11          HQ0147-10-D-0024               0003           MDA          Yes          Yes            Yes          Yes          Yes              5,829,579
   12          HQ0147-10-D-0010               0005           MDA          Yes          Yes            Yes          Yes          Yes              9,412,630
   13          HQ0006-07-D-0002               0005           MDA          Yes          Yes            Yes          Yes          No               2,593,789
   14          HQ0147-11-D-0014               0002           MDA          Yes          Yes            Yes          Yes          Yes             18,516,580
   15          HQ0147-11-C-7731                              MDA          No           Yes            Yes          Yes          Yes               999,407
   16          HQ0147-11-C-7715                              MDA          No           Yes            Yes          Yes          Yes               999,998
   17          HQ0147-11-C-7737                              MDA          No           Yes            Yes          Yes          Yes              1,000,000
   18          HQ0147-11-C-0003                              MDA          No           Yes            Yes          Yes          Yes              2,554,891
   19          HQ0006-04-D-0006               0030           MDA          Yes          Yes            Yes          Yes          Yes              3,150,000
   20          HQ0147-11-C-0100                              MDA          Yes          Yes            Yes          Yes          Yes             43,295,215
Acronyms used throughout Appendix C are defined on the final page of Appendix C.

26 │ DODIG-2014-011
                                                                                                                                    Appendixes




Contract Compliance with Interim Rule Requirements (cont’d)
                           Order Number        Site                                                          Accounting   Not-To-Exceed CR
        Contract Number    (if applicable)   Location   Approval   Justification   Transition   Monitoring     System          Value
 21    HQ0147-11-D-0052        0006           MDA         Yes          Yes            Yes          Yes          Yes            2,652,485
 22    HQ0147-11-D-0008        0003           MDA         Yes          Yes            Yes          Yes          No             1,888,377
 23    HQ0147-10-D-0008        0003           MDA         Yes          Yes            Yes          Yes          Yes           81,259,594
 24     HQ0147-12-C-6013                      MDA         No           Yes            No           Yes          No               837,503
 25    HQ0147-10-D-0050        0008           MDA         Yes          Yes            Yes          Yes          Yes            7,618,221
 26     HQ0147-11-C-7687                      MDA         No           Yes            Yes          Yes          Yes              350,000
 27     HQ0147-12-C-7727                      MDA         No           Yes            Yes          Yes          Yes              999,631
 28     HQ0147-12-C-7724                      MDA         No           Yes            Yes          Yes          Yes              999,998
 29    HQ0006-08-D-0003        0014           MDA         Yes          Yes            Yes          Yes          Yes            1,670,346
 30     HQ0147-11-C-6011                      MDA         No           Yes            Yes          Yes          Yes              800,000
 31     HQ0147-11-C-7752                      MDA         No           Yes            Yes          Yes          Yes              999,940
 32     HQ0147-11-C-7699                      MDA         No           Yes            Yes          Yes          Yes            1,245,963
 33     HQ0147-11-C-0014                      MDA         No           Yes            Yes          Yes          No             9,558,740
 34    HQ0147-12-D-0003        0001           MDA         Yes          Yes            Yes          Yes          Yes          337,069,176
 35     HQ0147-10-D0001        0007           MDA         Yes          Yes            Yes          Yes          Yes            5,387,767
 36     HQ0147-12-C-0001                      MDA         Yes          Yes            Yes          Yes          No               899,983
 37    HQ0147-10-D-0011        0003           MDA         Yes          Yes            Yes          Yes          No             2,417,733
 38     HQ0147-11-C-0009                      MDA         Yes          Yes            No           Yes          Yes           42,716,764
 39    HQ0147-11-D-0013                       MDA         No           Yes            Yes          Yes          Yes           48,351,494
         MDA Subtotal:                                    20            39            37           39           32        $ 1,256,385,631




                                                                                                                               DODIG-2014-011 │ 27
Appendixes



Contract Compliance with Interim Rule Requirements (cont’d)
                                  Order Number        Site                                                          Accounting   Not-To-Exceed CR
                Contract Number   (if applicable)   Location   Approval   Justification   Transition   Monitoring     System          Value
   40          H94003-04-D-0004       0188           DMEA        No           No             No           Yes          No               152,012
   41          H94003-04-D-0006       0211           DMEA        No           Yes            No           Yes          Yes              154,800
   42          H94003-04-D-0006       0202           DMEA        No           Yes            No           Yes          Yes              197,784
   43          H94003-04-D-0007       0023           DMEA        No           No             No           Yes          No               199,579
   44          H94003-04-D-0004       0190           DMEA        No           No             No           Yes          No               227,496
   45          H94003-04-D-0001       0051           DMEA        No           No             No           Yes          No               234,441
   46          H94003-04-D-0002       0081           DMEA        No           No             No           Yes          Yes              249,890
   47          H94003-04-D-0004       0207           DMEA        No           No             No           Yes          No               299,742
   48          H94003-04-D-0008       0005           DMEA        No           No             No           Yes          Yes              669,778
   49          H94003-04-D-0006       0199           DMEA        No           No             No           Yes          Yes              349,717
   50          H94003-04-D-0006       0186           DMEA        No           Yes            No           Yes          Yes              410,979
   51          H94003-07-D-7001       0003           DMEA        No           No             No           No           No               520,394
   52          H94003-04-D-0006       0224           DMEA        No           Yes            No           Yes          Yes              571,915
   53          H94003-04-D-0004       0174           DMEA        No           No             No           Yes          No               679,915
   54          H94003-04-D-0004       0187           DMEA        No           Yes            No           Yes          No               925,334
   55          H94003-04-D-0004       0198           DMEA        No           Yes            No           Yes          No             1,056,839
   56          H94003-04-D-0004       0181           DMEA        No           Yes            No           Yes          No             1,131,648
   57          H94003-04-D-0005       0039           DMEA        No           Yes            No           Yes          Yes            1,537,071
   58          H94003-04-D-0007       0025           DMEA        No           Yes            No           Yes          No             1,898,592
   59          H94003-04-D-0002       0084           DMEA        No           Yes            No           Yes          Yes            2,235,449
   60          H94003-04-D-0001       0053           DMEA        Yes          Yes            No           Yes          No            19,209,762
   61          H94003-11-C-1107                      DMEA        No           Yes            No           Yes          No             7,580,409
   62          H94003-04-D-0001       0050           DMEA        No           Yes            No           Yes          No            25,701,837


28 │ DODIG-2014-011
                                                                                                                                   Appendixes



Contract Compliance with Interim Rule Requirements (cont’d)
                           Order Number        Site                                                          Accounting   Not-To-Exceed CR
        Contract Number    (if applicable)   Location   Approval   Justification   Transition   Monitoring     System          Value
 63     H94003-04-D-0004       0208           DMEA        No           Yes            No           Yes          No            20,049,007
 64     H94003-04-D-0005       0040           DMEA        Yes          Yes            No           Yes          Yes           37,918,034
 65     H94003-04-D-0005       0042           DMEA        Yes          Yes            No           Yes          Yes           18,827,639
 66     H94003-04-D-0006       0185           DMEA        Yes          Yes            No           Yes          Yes           23,208,889
 67     H94003-04-D-0006       0187           DMEA        Yes          Yes            No           Yes          Yes           26,483,654
 68     H94003-04-D-0006       0207           DMEA        No           Yes            No           Yes          Yes           44,426,524
 69     H94003-04-D-0006       0222           DMEA        No           Yes            No           Yes          Yes           45,535,713
 70     H94003-04-D-0007       0019           DMEA        Yes          Yes            No           Yes          No            19,949,457
 71     H94003-04-D-0002       0072           DMEA        Yes          Yes            Yes          Yes          Yes            5,081,429
 72     H94003-04-D-0002       0075           DMEA        Yes          Yes            No           Yes          Yes           15,852,197
 73     H94003-04-D-0002       0077           DMEA        Yes          Yes            No           Yes          Yes            3,729,218
 74     H94003-04-D-0002       0078           DMEA        Yes          Yes            No           Yes          Yes           11,351,487
 75     H94003-04-D-0002       0082           DMEA        No           Yes            No           Yes          Yes            2,900,000
 76     H94003-04-D-0002       0083           DMEA        No           Yes            No           Yes          Yes            3,996,717
 77     H94003-04-D-0003       0048           DMEA        Yes          Yes            No           Yes          Yes            4,322,669
 78     H94003-04-D-0003       0054           DMEA        Yes          Yes            No           Yes          Yes            5,842,270
 79     H94003-04-D-0004       0182           DMEA        Yes          Yes            No           Yes          No             3,708,090
 80     H94003-04-D-0004       0183           DMEA        No           Yes            No           Yes          No             3,944,679
 81     H94003-04-D-0005       0036           DMEA        Yes          Yes            No           Yes          Yes            2,898,380
 82     H94003-04-D-0005       0037           DMEA        No           Yes            No           Yes          Yes            4,666,750
 83     H94003-04-D-0006       0191           DMEA        Yes          Yes            No           Yes          Yes            7,633,126
 84     H94003-04-D-0006       0192           DMEA        Yes          Yes            No           Yes          Yes            2,465,030
 85     H94003-04-D-0006       0197           DMEA        Yes          Yes            No           Yes          Yes            3,864,901


                                                                                                                              DODIG-2014-011 │ 29
Appendixes



Contract Compliance with Interim Rule Requirements (cont’d)
                                          Order Number        Site                                                          Accounting   Not-To-Exceed CR
                Contract Number           (if applicable)   Location   Approval   Justification   Transition   Monitoring     System          Value
   86          H94003-04-D-0006               0216           DMEA        No           Yes            No           Yes          Yes           15,568,715
   87          H94003-04-D-0007               0015           DMEA        No           Yes            No           Yes          No             4,258,768
   88          H94003-11-C-1108                              DMEA        Yes          Yes            No           Yes          No             3,222,864
                 DMEA Subtotal:                                          18            39             1           48           29        $ 407,901,590
              Total of All Compliant                                     38            78            38           87           61
                    Contracts:
           Total of All Non-Compliant                                    50            10            50            1           27
                    Contracts
              Total CR Value of All                                                                                                      $ 1,664,287,221
              Contracts Reviewed

CR	   Cost Reimbursement
MDA	 Missile Defense Agency
DMEA	 Defense Microelectronics Activity




30 │ DODIG-2014-011
                                  Management Comments




Management Comments
Missile Defense Agency Comments




                                        DODIG-2014-011 │ 31
Management Comments



            Missile Defense Agency Comments (cont’d)




32 │ DODIG-2014-011
                                             Management Comments



Defense Microelectronics Activity Comments




                                                   DODIG-2014-011 │ 33
Management Comments



            Defense Microelectronics Activity Comments (cont’d)




34 │ DODIG-2014-011
                                               Acronyms and Abbreviations




Acronyms and Abbreviations
    COR Contracting Officer’s Representative
   DMEA Defense Microelectronics Activity
     FAC Federal Acquisition Circular
     FAR Federal Acquisition Regulation
    MDA Missile Defense Agency
    SBIR Small Business Innovation Research




                                                          DODIG-2014-011 │ 35
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
